OFFICE OF INSPECTOR GENERAL


Audit of USAID/Haiti’s Tropical
Storm Reconstruction Program



AUDIT REPORT NO. 1-521-05-007-P
APRIL 11, 2005




SAN SALVADOR, EL SALVADOR
                  Office of Inspector General



       April 11, 2005


       MEMORANDUM

       FOR:                       USAID/Haiti Director, Erna Kerst

       FROM:                      Regional Inspector General/San Salvador, Steven H. Bernstein “/s/“

       SUBJECT:                   Audit of USAID/Haiti’s Tropical Storm Reconstruction Program (Report No.
                                  1-521-05-007-P)


       This memorandum is our report on the subject audit. This report does not contain any
       recommendations for your action. In finalizing this report, we considered your comments on
       our draft report and have included your response in Appendix II.

       Once again, I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ..................................................................................................................1

Background ...............................................................................................................................2

Audit Objectives ...........................................................................................................................2

Audit Findings ............................................................................................................................3

     What steps did USAID/Haiti implement to manage
     its tropical storm reconstruction program? ............................................................................3

          Construction work proceeded without engineering
          or environmental approval ...............................................................................................5

Evaluation of Management Comments .................................................................................... 7

Appendix I – Scope and Methodology ..................................................................................... 8

Appendix II – Management Comments .................................................................................... 10

Appendix II – Risk Analysis ...................................................................................................... 11
SUMMARY OF RESULTS
As part of its fiscal year 2005 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following question:

•   What steps did USAID/Haiti implement to manage its tropical storm reconstruction program?

USAID/Haiti designed steps to control significant risks facing program implementation. Steps
implemented by USAID/Haiti to manage its tropical storm reconstruction program (TSRP)
included requiring work plans from Development Alternatives, Inc. and CARE, bi-weekly
meetings with Development Alternatives, Inc. (DAI) and CARE, field visits at least monthly by
USAID/Haiti’s cognizant technical officers and engineer, working with the Interim Government of
Haiti and local communities, monthly progress reports from DAI and CARE, hiring two
monitoring firms, development of criteria for the projects, pre-approval of engineering plans, and
environmental reviews and approvals. (See page 5.)

Although we did not make a recommendation, we noted that neither the engineering monitoring
firm nor USAID/Haiti’s chief engineer had reviewed and approved the specifications for
construction work that was done prior to January, 31, 2005. We also noted that no
environmental approvals had been obtained as of this date. (See page 8.)

USAID/Haiti concurred with the report and its findings. USAID/Haiti contracted an engineering
monitoring firm and an accounting monitoring firm and was in the process of conducting the
required environmental reviews. (See page 10.)




                                                                                                1
BACKGROUND
Parts of Haiti’s Northwest and Artibonite departments were devastated by Tropical Storm
Jeanne on September 18-19, 2004. Fifty-year floods inflicted extensive damage in the city of
Gonaïves and surrounding regions, including the Gonaïves and Trois Rivières watersheds that
together cover some 1,063 square kilometers of land with a population estimated at
approximately 700,000. The Commune of Gonaïves has a population of over 200,000 with
slightly more than half living in the urban sector, primarily in tightly packed slum districts.
Approximately 80 percent of the population of Gonaïves was directly affected by severe
flooding.

On October 12, 2004, Congress approved $100 million of supplemental funds to assist
Caribbean countries in their efforts to recover from the destruction caused by several hurricanes
and tropical storms in 2004. USAID/Haiti’s tropical storm reconstruction program (TSRP)
Special Objective was approved by the Bureau of Latin America and the Caribbean on
November 15, 2004, with funding of $34.1 million for one year. Subsequently, USAID/Haiti
awarded a $9.2 million contract to Development Alternatives, Inc. and entered into a $22.1
million cooperative agreement with CARE.1 Approximately $2.8 million was budgeted for hiring
two monitoring firms and a financial analyst for the program.

The TSRP was directed at both urban and rural areas which sustained heavy loss of life and
damage to public infrastructure (i.e., schools and health facilities) and sites and services (i.e.,
roads, water and sanitation systems, and urban drainage). The TSRP also incorporated
urgently needed agriculture rehabilitation and environmental stabilization to the surrounding
hillsides, irrigation system repair, riverbed clean-up, and watershed education. Finally, a
component of the TSRP was directed at households, particularly women and children affected
by damaged and destroyed homes and schools, at the loss of household assets (i.e., animals,
incomes from small farms and micro businesses), and at the lack of knowledge and tools for
dealing with disaster.

The original intent for the TSRP was for it to be a two-year program. This timeframe was
subsequently reduced to 18 months and ultimately to one year, with an additional three months
for wrap up. This audit addressed management controls implemented by USAID/Haiti to ensure
that the TSRP is completed on time, within budget, and in compliance with USAID standards.

AUDIT OBJECTIVES
As part of its fiscal year 2005 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following question:

•   What steps did USAID/Haiti implement to manage its tropical storm reconstruction program?

Appendix I contains a discussion of the audit's scope and methodology.




1
 CARE is the lead partner in a consortium with Cooperative Housing Foundation and the Pan American
Development Foundation.




                                                                                                 2
AUDIT FINDINGS
What steps did USAID/Haiti implement to manage its tropical storm
reconstruction program?
USAID/Haiti designed steps (management controls) to manage risks related to program
implementation. Steps implemented by USAID/Haiti to manage its tropical storm reconstruction
program (TSRP) include:

•   Requiring work plans from development partners.
•   Conducting bi-weekly meetings with Development Alternatives, Inc. (DAI) and CARE.
•   Conducting field visits at least monthly.
•   Coordinating work with the Interim Government of Haiti, local communities, and other
    donors.
•   Requiring monthly progress reports from DAI and CARE.

Steps planned by USAID/Haiti include:

•   Hiring an engineering monitoring firm to review plans and monitor construction quality and
    another firm to monitor output and report on quality of activities.
•   Hiring a financial analyst to review program-related expenditures.
•   Participating in the development of eligibility criteria.
•   Requiring engineering plans to be approved in advance by USAID/Haiti’s engineer and by
    the engineering monitoring firm.
•   Requiring environmental reviews and approvals prior to the start of construction work.

The steps implemented and planned by the Mission arose from its consideration of the risks that
needed to be controlled to ensure successful completion of the program. TSRP team members
considered various risks, as required by Automated Directives System (ADS) 596, when they
designed the TSRP; however, they did not prepare a formal, written risk analysis that identified
the significance of each risk, the likelihood of its occurrence, how to manage the risk, and what
actions should be taken. While ADS 596.3.1 does not require this analysis to be in writing, it is
difficult to analyze each risk as set forth in ADS 596.3.1 without doing so in writing. RIG/San
Salvador met with Mission personnel and prepared the risk analysis included herein as
Appendix III. Significant steps implemented by USAID/Haiti to manage the major risks identified
in the risk analysis are discussed below.

Program risks – Program risks will be addressed through the development and approval of
criteria. The cooperative agreement with CARE did not set forth eligibility criteria for the
selection of beneficiaries for the household repair, asset restoration, and income generation
components. The criteria will be developed by CARE and/or Cooperative Housing Foundation
(CHF), subject to USAID/Haiti approval. Likewise, neither the contract with DAI nor the
cooperative agreement with CARE set forth quality criteria for the construction components of
the TSRP. These criteria will be developed and submitted to USAID/Haiti and the engineering
monitoring firm for approval.




                                                                                               3
Additionally, USAID/Haiti and its development partners2 will coordinate work on public
infrastructure and services with the appropriate government ministries and other donors. They
will also work with the affected communities to identify and prioritize projects. This will involve
USAID/Haiti and/or its development partners meeting with government ministries and
community members to identify and prioritize projects.

Time risks – The TSRP was approved on November 15, 2004, and it is scheduled to be
completed in December 2005, with an additional three months for wrapping up the program.
Due to the one-year timeframe of the TSRP, there is a strong risk that there is not sufficient time
to complete all the work contemplated under the TSRP. This short timeframe requires the
program to maintain a strict time schedule.

A variety of controls will be utilized to manage time (schedule) risks. These include a
requirement for work plans, bi-weekly meetings, and progress reports as well as hiring
monitoring firms.

DAI is required to submit a one-year work plan while CARE is required to submit six-month work
plans. DAI and CARE submitted work plans that clearly indicated when activities would be
implemented. USAID/Haiti cognizant technical officers (CTOs), DAI, and CARE stated,
however, that the work plans were subject to revision based on changing conditions and
priorities, the desires of local communities and governments, activities and work plans of other
donors, security risks, and changes dictated by weather and road conditions. For example,
contrary to the initial timeline outlined in the proposal, DAI started working on the irrigation
pumps in mid-December in order to allow the farmers to take advantage of the planting season.
Additionally, the contract with DAI originally envisioned repairing the electrical generator for the
electrical network serving the Gonaïves irrigation pumps, but this generator was repaired by a
government ministry.

USAID/Haiti staff met with the development partners bi-weekly at CARE’s office in Port-au-
Prince, and the USAID/Haiti CTOs maintained regular contact with the development partners via
e-mail and telephone. As was evidenced by field trip reports, USAID/Haiti staff had performed
three site visits and was informed about the progress of work. Each visit was for two or three
days and included visits to several activity sites. USAID/Haiti planned to make further site visits
at least once a month.

DAI and CARE are required to submit monthly progress reports detailing the work done in the
reporting period and work planned in the immediate future, and they submitted the reports as
required at the time of the audit. CARE’s report, which included input from PADF and CHF, was
based on a pre-established template to ensure that information was presented in a consistent
manner.

The TSRP also provided for the hiring of two monitoring firms. An engineering firm will be hired
to track implementation of all engineering and environmental impact mitigation efforts. It will
also review plans for technical soundness before work begins. An auditing firm will be hired to
track outputs to ensure that plans are implemented in a timely manner.



2
 The term development partners refers to the organizations implementing the TSRP on behalf of
USAID/Haiti, i.e., Development Alternatives, Inc., CARE, Cooperative Housing Foundation, and Pan
American Development Foundation.




                                                                                                  4
Cost risks – Cost risks will be addressed through procurement reviews as well as through
financial reviews to be conducted by USAID/Haiti’s financial management office. The CTOs will
review procurement plans, including subcontracts and subgrants. USAID/Haiti plans to hire a
temporary employee to monitor and review TSRP expenditures. This employee will visit the
offices of the development partners and will review and test financial controls and procedures.

Of the few subcontracts that had been let at the time of the audit, USAID/Haiti had not reviewed
the process before the subcontracts were executed. USAID/Haiti has now adopted procedures
regarding review of the subcontracting process. At the time of the audit, USAID/Haiti’s financial
management office had not hired an employee to monitor and review TSRP expenditures, but it
was preparing to do so.

Quality risks – Quality risks will be addressed by USAID/Haiti’s engineer and the engineering
monitoring firm. USAID/Haiti’s engineer will review and approve engineering plans before they
are sent out for bids. As is noted above, an engineering monitoring firm will be hired to monitor
construction quality and compliance with engineering plans. Further, the firm will verify internal
quality standards, processes, and reporting systems. Quality risks will also be addressed
through frequent field visits by Mission personnel and quality controls at DAI, CARE, Pan
American Development Foundation (PADF), and CHF.

Quality risks include environmental risks. The environmental risks will be addressed through an
environmental review of individual projects and approval by the Mission Environmental Officer of
environmental mitigation measures prior to the initiation of work. The engineering monitoring
firm will monitor implementation of environmental impact mitigation actions.

Other risks – Personal security in Gonaïves will be addressed by using local firms and by using
staff that live in the work area. Most of the risk for equipment and materials at job sites will be
passed on to the subcontractors, and it is anticipated that they will take appropriate security
measures. One development partner plans to address the heightened security risks during the
elections by completing work in Gonaïves before the elections currently scheduled for
November 2005. CARE will be responsible for security at its existing warehouse and office
space in Gonaïves.

Construction Work Proceeded Without
Engineering or Environmental Approval
Two management controls to manage quality risks were not operating as originally envisioned.
According to USAID/Haiti’s proposal for monitoring the engineering component of the TSRP, an
engineering monitoring firm was to review plans for technical soundness before construction
work began. USAID/Haiti’s engineer was also to review the plans before construction
subcontracts were solicited. However, neither the engineering monitoring firm nor USAID/Haiti’s
chief engineer had reviewed and approved the specifications for construction work that was
done in December 2004 or the work that was being performed in January 2005.3 In fact, an
engineering monitoring firm had yet to be hired by USAID/Haiti. At the time of the audit, the
Mission was in the process of selecting an engineering monitoring firm, and the review
procedures for activities by USAID/Haiti’s engineer had not been formalized. USAID/Haiti’s
engineer did, however, make a field visit in January to review several activities. During his visit,
3
 As of late January 2005, 21 of 39 irrigation water pumps had been repaired, and related irrigation canals
had been cleared of mud and debris. Additionally, a collapsed aqueduct at another irrigation system was
almost completely rebuilt, and a 650 meter extension of an irrigation canal was nearing completion.




                                                                                                        5
he made recommendations regarding the work, including the need to shore up the columns
supporting an aqueduct that was being rebuilt.

The Initial Environmental Examination for the TSRP stated that irrigation system rehabilitation
projects required site-specific environmental review to be approved by the Mission
Environmental Officer. Several irrigation system rehabilitation activities had already begun;
however, no environmental approvals had been obtained as of January 31, 2005. The Mission
planned to conduct the site-specific environmental reviews to be approved by the Mission
Environmental Officer.

Activities were started before the approval processes were in place because there was great
pressure to begin activities promptly in order to complete the TSRP on time. By beginning
projects without an environmental review or the approval of qualified, USAID-selected
engineers, it is more likely for projects to be implemented incorrectly.

We are not making a recommendation regarding these matters. The Mission acknowledged
that procedures were not followed in these instances, and it is completing the process of hiring
the engineering firm and requiring environmental reviews.




                                                             Photograph of a water pumping
                                                             station in Gonaïves, Haiti, that was
                                                             recently repaired by DAI (January
                                                             26, 2005).




                                                                                               6
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Haiti concurred in the results of the audit. To address the audit findings, USAID/Haiti
hired an engineering monitoring firm in February 2005 to (1) track the implementation of all
engineering and environmental impact mitigation efforts, (2) review engineering plans for
technical soundness before work begins and monitor construction at various key points in the
process before certifying that the final structure is in conformance with all engineering norms
and practices, and (3) provide regular reports on output results. Additionally, USAID/Haiti hired
a Certified Public Accountant monitoring firm to track implementation of outputs, monitor and
evaluate performance, and provide regular reports on output results. Further, USAID/Haiti was
conducting the required environmental reviews to be approved by the Mission Environmental
Officer.




                                                                                               7
                                                                                    APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with generally
accepted government auditing standards from January 17, 2005 through February 1, 2005, to
determine what steps were implemented to manage USAID/Haiti’s tropical storm reconstruction
program (TSRP).

We performed a risk assessment and evaluated management controls related to measuring
these risks. A risk assessment is the identification and analysis of relevant risks associated with
achieving USAID objectives and the formation of a basis for determining how risks should be
managed. Once risks were identified, they were analyzed. Analysis included estimating the
risk’s significance, assessing the likelihood of its occurrence, and deciding how to manage the
risk and what actions should be taken.

The TSRP activities were implemented by CARE and Development Alternatives, Inc. (DAI).
CARE is the lead partner in a consortium with the Pan American Development Foundation
(PADF) and the Cooperative Housing Foundation (CHF). The development partners will rely on
subcontractors to perform much of the work. We conducted the audit at the offices of
USAID/Haiti, the offices of each development partner (CARE, DAI, PADF, and CHF), and at the
construction sites in Gonaïves and Chansolme areas. At these offices, we interviewed Mission
and contractor staff and reviewed documents such as contracts, statements of work, work
plans, and performance reports.

Methodology
To determine what steps USAID/Haiti took to manage TSRP activities, we interviewed
USAID/Haiti and contractor staff regarding program risks and steps that were taken or planned
to mitigate these risks. We further reviewed available documentation regarding the TSRP
including the agreements, the status reports, and the field reports.

The audit objective was descriptive.      RIG/San Salvador answered the audit objective by
performing the following:

   •   Gained an understanding of the Mission’s tropical storm reconstruction activities and
       independently assessed the risks facing the project team in meeting the Mission’s
       objectives.
   •   Together, RIG/San Salvador and the Mission determined and agreed on the risks facing
       the program.
   •   Identified steps, processes, or controls implemented or planned by the Mission to
       mitigate significant risks.

The answer to the audit objective reported on the significant risks and the management steps
taken to mitigate those risks.




                                                                                                 8
                                                                                   APPENDIX I

RIG/San Salvador tested the implementation of the steps identified under the audit objective.
Specifically, we reviewed documents and interviewed Mission personnel to determine if
eligibility criteria and quality criteria had been developed, work plans and progress reports had
been submitted, bi-weekly meetings were held and regular contact with the development
partners was made, procurement and financial reviews were performed, monitoring firms were
hired, the engineering monitoring firm and the Mission engineer were reviewing and approving
plans, environmental reviews were being approved by the Mission environmental officer, and
measures were implemented for personal security.




                                                                                               9
                                                                                      APPENDIX II



MANAGEMENT COMMENTS
March 21, 2005

Erna Kerst
USAID/Haiti Mission Director

Comments on the RIG Draft Audit Report No.1-521-05-XXX-P

Steven H. Bernstein
Regional Inspector General
RIG/San Salvador


This Memorandum constitutes USAID/Haiti’s response to the Regional Inspector General (RIG)
Draft Audit Report dated March 3, 2005 of USAID/Haiti’s Tropical Storm Reconstruction Program.

General Comments:

USAID/Haiti appreciates the time and effort of your staff in carrying out the audit of the Tropical
Storm Reconstruction Program (TSRP). After completing its review of the Draft Audit Report, the
Mission concurs with the contents of the draft report. The following course of actions is being
implemented to address the findings noted in the Draft Audit Report:

   o   An engineering monitoring firm has been contracted (02/18/05) to (1) track the
       implementation of all engineering and environmental impact mitigation efforts, (2) review
       engineering plans for technical soundness before work begins and monitor construction at
       various key points in the process before certifying in writing that the final structure is in
       conformance with all engineering norms and practices, and (3) provide regular and timely
       reports on output results.

   o   A CPA monitoring firm has been contracted (02/19/05) to (1) track the implementation of
       the outputs for both components of the TSRP- the agricultural rehabilitation and hillside
       recovery component and the public infrastructure and household support component, (2)
       monitor and evaluate the performance of the grantee and contractor under the TSRP, and
       (3) provide implementation reports.

   o   The Mission is in the process of conducting required environmental reviews of irrigation
       system rehabilitation projects to be approved by the Mission Environmental Officer.

Conclusion:

USAID/Haiti would again like to express its appreciation for the manner in which the audit was
conducted and the usefulness of the information contained in the Draft Audit Report which will
result in a more efficient management of the TSRP Program.
a/s




                                                                                                   10
                                                                                                                               APPENDIX III


                               Risk Analysis of USAID/Haiti Tropical Storm Reconstruction Program (TSRP)


                                              Likelihood
  Risk                         Significance       of
 Type          Risk               of Risk     Occurrence                       Control                               Actions to Take
Program Type of repairs        Low            Low        Generally, an initial assessment is done which     CARE & Development
        that can be                                      more clearly defines the criteria.                 Alternatives Inc. (DAI) are doing
        undertaken not                                   The idea of being somewhat general in the          assessments now. They will
        defined by project                               Request for Proposal was to be flexible based      coordinate with other
        team                                             on what occurs. For example, some of the           organizations so that duplicative
                                                         public buildings originally envisioned as being    aid is not given. A Performance
                                                         part of the TSRP are being repaired by others.     Monitoring Plan is due to
                                                                                                            Washington on 1/31/05.
         Screening criteria    High           Rural - Low   An assessment will be done which more clearly   CARE, DAI & the community
         for eligible                         City - High   defines the criteria.                           groups are working on criteria
         recipients/                                                                                        which they will review with
         communities not                                                                                    USAID.
         defined
         Non-conforming        High           Medium        An assessment will be done which more clearly   CARE & DAI are already: [1]
         repairs (related to                                defines the criteria.                           active in donor coordination in
         approved scope)                                                                                    the areas, [2] defining criteria, [3]
         approved                                                                                           making sure that activities are
                                                                                                            conform with other assistance
                                                                                                            being provided, and [4] creating
                                                                                                            lists of beneficiaries
         Construction/repa     Medium         Rural - Low   An assessment will be done which more clearly   CARE will closely follow
         irs performed for                    City - High   defines the criteria.                           selection criteria.
         ineligible
         recipients
         Construction/repa     High           High          Criteria will be developed.                     USAID/Haiti will review portfolio
         irs rejected for                                   The number of needy people outstrip the         of actives with its implementing
         eligible recipients                                amount of resources.                            partners and coordinate with
                                                                                                            other donors.




                                                                                                                                               11
                                                                                                                              APPENDIX III


                                            Likelihood
  Risk                       Significance       of
  Type           Risk           of Risk     Occurrence                       Control                                 Actions to Take
Time     Delays in           Medium         Low        An assessment will be done which more clearly         CARE will ensure that
         identifying and                               defines the criteria.                                 assessments are done as early
         approving                                                                                           as possible.
         beneficiaries
Time     Delays in           Medium         See control   Controls will depend on how this aid is            Actions to take will depend on
         determination of                   column.       formulated. USAID/Haiti is trying to avoid         the contents of the proposal.
         what constitutes                                 having to validate land tenure status.
         valid land tenure                                The Cooperative Housing Foundation (CHF)
         status                                           will submit a proposal.
         Work not            High           Medium        6-month and 1-year timelines to identify what      Take corrective actions as
         completed on                                     work needs to be done when.                        needed to ensure all projects
         time                                             Quarterly reports and monthly progress reports.    are completed within the
                                                          Bi-weekly meetings.                                program timeframe.
                                                          Frequent field trips (at least monthly).
                                                          Use of monitoring and evaluation (M&E) firms.
                                                          Use of penalty clauses to motivate
                                                          subcontractors to complete work on time.
         Materials are       High           Low           USAID is using contractors that have prior         CARE and DAI will keep track of
         unavailable                                      experience in Haiti. Therefore, relationships      materials they need and
                                                          with suppliers have already been established.      maintain close contact with their
                                                          In many cases, the subcontractors will be          suppliers subcontractors.
                                                          responsible for providing supplies & equipment.
         Delays due to       High           Low.          Most goods to be sourced locally. There is         CARE and DAI will keep track of
         imports &                                        authorization to lease 1/3 of the vehicles and     materials they need and
         customs                                          purchase 1/3 of the vehicles locally due to time   maintain close contact with their
                                                          constraints.                                       suppliers subcontractors. They
                                                                                                             will plan in advance and obtain
                                                                                                             waivers as needed.




                                                                                                                                              12
                                                                                                                                APPENDIX III


                                               Likelihood
  Risk                         Significance        of
  Type         Risk               of Risk     Occurrence                      Control                                  Actions to Take
Time     Delays because        High           Low         Some activities are contingent on approval by       Maintain frequent
         of dependency on                                 local communities, the Ministry of Public           communications with the
         work of others                                   Works, or the Ministry of Agriculture, but          government and local
                                                          USAID has a good working relationship with          communities. Complete
                                                          these groups and does not anticipate any            assessments early to allow time
                                                          delays from it. Some activities require             for environmental approval.
                                                          environmental approval before beginning.
         Delays due to         High           Low-          Weather cannot be controlled.                     Be flexible to adjust the
         poor weather                         Medium        Note that Gonaives receives only 12 days a        schedule as dictated by the
                                                            year of rain other than hurricanes. Other areas   weather.
                                                            may receive more rain.
         Poor                  High           Medium        The program will primarily use 4-wheel drive      Be flexible to adjust the
         infrastructure may                                 vehicles and large trucks.                        schedule as dictated by
         delay distribution                                 Some of the funds will be used to repair roads.   infrastructure limitations.
         of materials                                       It would be far too costly to repair all of the
                                                            roads.
         Inexperienced or      Medium         Inexperienc   DAI & CARE will select experienced sub-           CARE and DAI will thoroughly
         overextended                         ed – Low;     contractors carefully.                            evaluate each proposal.
         sub-contractors                      Overextend
         may delay                            ed - Medium
         construction
         Payment terms/        Medium         Low           Progress payments are standard operating          USAID/Haiti, along with a
         availability of                                    practice at USAID/Haiti. CARE is able to draw     monitoring firm, will verify that
         credit may delay                                   funds from a letter of credit, which prevents     the actual progress corresponds
         construction                                       delays. The Pan-American Development              with the payment requests.
                                                            Foundation (PADF) received a large advance
                                                            from CARE.
         Activities required   Medium         Low           CARE & DAI will identify the complete work        USAID/Haiti & the M&E firm will
         to complete                                        package for each job.                             review work plans carefully.
         project not
         identified




                                                                                                                                              13
                                                                                                                             APPENDIX III


                                             Likelihood
  Risk                        Significance       of
  Type           Risk            of Risk     Occurrence                    Control                                 Actions to Take
Time     Unreasonable or      Medium         Low        Contractors and the mission staff are               CARE and DAI should be ready
         unrealistic                                    experienced, especially after going through         to amend the budget as needed.
         estimates were                                 Hurricane Mitch reconstruction.
         used
         Schedule             Medium         Low          Work plans are developed and reviewed.            USAID/Haiti will closely monitor
         interdependencie                                                                                   the work plans.
         s not identified
         Human resources      Medium         Low          There is a healthy supply of experienced          CARE and DAI should be ready
         not available                                    contractors.                                      to replace its employees and
         when required                                                                                      subcontractors as needed.
         Skill                Medium         Low          There are standards set for the non-skilled       The M&E firm will monitor the
         level/productivity                               labor. For example, the cash-for-work program     quality and efficiency of works.
         of labor less than                               requires a minimum amount of mud to be
         expected                                         removed each week.
                                                          Skilled labor is readily available in Haiti.
         Changes to           Medium         Medium       Assessments will be developed and approved        USAID/Haiti will closely monitor
         scope, repair                                    prior to implementation.                          the work plans.
         plans, or
         construction
         designs delay
         project
         Security concerns    High           High         Contractors have experience in this area of the   CARE and DAI will work closely
         delay delivery of                                country. CARE is well-established in the          with the community to get buy in
         materials and                                    Gonaives area.                                    for the activities. They will
         access to                                                                                          continue to interact with the
         worksites                                                                                          community.




                                                                                                                                           14
                                                                                                                              APPENDIX III


                                            Likelihood
 Risk                        Significance       of
 Type           Risk            of Risk     Occurrence                    Control                                    Actions to Take
Cost    Resources            High           Low        Assessments will be done up front.                   CARE and DAI will keep track of
        (materials, labor,                             Assessments by partners will be monitored by         materials they need and
        tools, equipment)                              the M&E firm and through frequent meetings           maintain close contact with their
        and quantities                                 and site visits.                                     suppliers subcontractors. They
        required for in-                               In many cases, subcontractors will be                will plan in advance and obtain
        scope repairs and                              responsible for managing their resources.            waivers as needed.
        construction not
        identified
Cost    Payroll padding      Medium         Low          Workers will be enrolled for payroll purposes at   CARE and DAI will implement
                                                         a central location.                                their financial controls to ensure
                                                         PADF uses experienced financial                    that payroll is handled properly.
                                                         intermediaries to make payments.
                                                         Regarding the cash-for-work program, team
                                                         leaders keep track of who is present, and
                                                         CARE makes random checks daily.
        Approximate          Medium         Low          Budgets were submitted during the proposal         Review budgets periodically to
        costs of                                         process.                                           ensure that they are accurate.
        resources not
        developed
        Bulk suppliers not   Low            Low          In many cases, subcontractors will be              CARE and DAI will keep track of
        identified                                       responsible for managing their resources.          materials they need and
                                                                                                            maintain close contact with their
                                                                                                            suppliers subcontractors. They
                                                                                                            will plan in advance and obtain
                                                                                                            waivers as needed.




                                                                                                                                             15
                                                                                                                          APPENDIX III


                                            Likelihood
 Risk                        Significance       of
 Type          Risk             of Risk     Occurrence                       Control                               Actions to Take
        Materials lost to    Medium         Low          CARE controls access to the warehouse            CARE will implement controls to
        shrinkage from                                   complex.                                         ensure that materials/supplies
        warehousing/stor                                 The complex has armed guards 24 hrs/day.         are not stolen or become
        age                                              Receiving reports are signed by both the         spoiled.
                                                         deliverer & warehouse recipient.
                                                         2 signatures are required when signing out all
                                                         supplies. In many cases, subcontractors will
                                                         be responsible for managing their resources.

        Schedule delays      Medium         Low          Use fixed fee awards.                            Be flexible to adjust the
        lead to unplanned                                                                                 schedule and the budget as
        overhead and                                                                                      dictated by unforeseen
        administrative                                                                                    circumstances.
        costs
Cost    Procurements not     High           Medium       The procurement plan will be tied to the work    USAID CTOs, with support from
        competed as                                      plan. The Regional Contracting Officer and       the contracting office, will
        required                                         Cognizant Technical Officers (CTOs) will         monitor the procurement
                                                         provide guidance to DAI and CARE.                process. They will ensure that
                                                                                                          subawards are competed. They
                                                                                                          will coordinate with the
                                                                                                          contracting office to obtain
                                                                                                          waivers as needed.
        Cost to transport    Medium         Medium       4x4s are built-in to the contracts along with    Be flexible to adjust the budget
        materials to work                                higher transportation rates.                     as dictating by actual transport
        sites exceed the                                                                                  requirements.
        budget
        Theft of materials   High           Medium       Site to be secured before beginning work.        Secure the job sites and
        and supplies at                                  Site is fenced in.                               implement other security
        staging area                                     In many cases, subcontractors will be            controls.
        and/or job site                                  responsible for managing their resources.




                                                                                                                                         16
                                                                                                                                APPENDIX III


                                              Likelihood
 Risk                         Significance        of
 Type          Risk              of Risk     Occurrence                       Control                                  Actions to Take
        Personal security     High           Low         Workers primarily live in the community where         Follow security advice provided
        of workers and                                   the work takes place.                                 by the Regional Security Office.
        supervisors at job                               Some workers and most visitors stay at 1 of 2
        site                                             hotels in Gonaives.
                                                         Outside the cities, personal security is not a
                                                         major issue.
        Cash payroll –        High           Medium      Subcontractors will be responsible for paying         When possible, minimize the
        risk of theft                                    their staff.                                          use of cash.
                                                         Under the cash-for-work program, checks are
                                                         issued to group leaders who distribute the
                                                         proceeds to all workers.
                                                         Most payments can be made by check or can
                                                         be wired to bank accounts.
        Flooding/             High           Medium      Engineering studies are done in advance to            CARE and DAI will monitor
        Mudslides result                                 identify vulnerable areas.                            worksites to ensure that safety
        in extra costs                                                                                         precautions are implemented as
                                                                                                               required.
Cost    Repairs do not        Medium         Low           USAID/Haiti will use the services of an             Engineers will review the
        take into account                                  engineering firm and the engineer at the            structural integrity of buildings
        structural                                         Mission. A structural engineer will also be used.   that will be repaired prior to
        damages                                                                                                working on them.
        Start/stop/start of   Medium         Low           1-year timeframe does not allow for work            Follow the work plan.
        projects result in                                 stoppages.
        rusting, erosion,
        etc.
        Unsafe work           High           High          This is an important consideration in light of      Be flexible to adjust the
        conditions result                                  upcoming elections in Nov 05.                       schedule as dictated by the
        in extra costs                                     Work in cities before campaigns begin and           security situation.
                                                           work in calmer areas during campaigns.




                                                                                                                                               17
                                                                                                                                 APPENDIX III


                                              Likelihood
 Risk                         Significance        of
 Type             Risk           of Risk     Occurrence                       Control                                   Actions to Take
          USAID funds         High           Low         M&E firms are to be hired by USAID.                   USAID/Haiti will monitor the
          disbursed for                                  Contractors and USAID staff are experienced.          progress of activities. FM will
          work that was not                              CTO briefly reviews and signs vouchers.               conduct financial reviews and
          completed /not                                 The Financial Management Office (FM) will hire        completion of work will be
          authorized /not                                a financial analyst to conduct financial reviews.     verified prior to making the last
          substantiated                                                                                        payment.
          /already paid for
Quality   Quality standards   High           Low           Contractors are developing proposed quality         USAID/Haiti and the M&E firm
          are not                                          standards prior to starting construction.           will review standards.
          established for
          roads, bridges,
          houses, etc.
          Quality standards   High           Medium        M&E firms and CARE & DAI quality assurance          Ensure that the M&E firms are
          not met/                                         specialists are used to verify quality.             fulfilling their duties and perform
          Construction                                                                                         independent checks for
          standards                                                                                            verification. Mission engineer to
          unsuitable for                                                                                       make site visits.
          conditions/
          Substandard
          materials used
          Labor used for      Medium         Low           Contractors are experienced. Program is             CARE and DAI will select their
          program not                                      designed to use a lot of unskilled labor in order   staff and contractors carefully to
          qualified                                        to provide employment.                              ensure that workers are
                                                                                                               qualified.




                                                                                                                                                   18
                                                                                                                             APPENDIX III


                                                 Likelihood
 Risk                            Significance        of
 Type            Risk               of Risk     Occurrence                        Control                            Actions to Take
Quality   Construction or        High           Low         Environmental reviews and approvals before       USAID/Haiti, CARE, and DAI will
          repairs will harm                                 initiation of construction.                      collaborate to ensure that
          the environment                                   Contractors are experienced with                 environmental guidelines are
                                                            environmental regulations.                       followed.
                                                            The program will use M&E firms and quality
                                                            control people in the partner firms.

          Monitoring             Medium         Low          The selected monitoring firm will be            Ensure that the selected M&E
          inadequate in                                      represented in Gonaives.                        firms have a strong local
          remote, difficult to                               USAID/Haiti staff will perform frequent field   presence.
          reach areas                                        visits.




                                                                                                                                            19
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
